                        DEPARTMENT OF HEALT H AND HUMA.l~ SERVIC ES


                  OFFICE OF INSPECTOR GENERAL
                                           WASHI NGTON , DC 2020 1




                                                   MAY 0 3 2013
TO: 	            Marilyn Tavenner
                 Acting Administrator
                 Centers for Medicare & Medicaid Services

                      /S/
FROM:            Stuart Wright:
                 Deputy Inspector General
                   for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Hospice : Use ofGenerallnpatient
           Care, OEI-02-1 0-00490


This memorandum report describes the use of hospice general inpatient care in 2011. It
is part of ongoing work by the Office of Inspector General (OIG) on the Medicare
hospice benefit. A companion report will look at the appropriateness ofhospice general
inpatient care provided to beneficiaries.

SUMMARY

Hospice general inpatient care (GIP) is for pain control or symptom management
provided in an inpatient facility that cannot be managed in other settings. The care is
intended to be short-term and is the second most expensive level of hospice care. GIP
may be provided in one of three settings: a Medicare-certified hospice inpatient unit, a
hospital, or a skilled nursing facility (SNF).

Centers for Medicare & Medicaid Services (CMS) staff have expressed concerns about
possible misuse of GIP, such as care being billed for but not provided, long lengths of
stay, and beneficiaries receiving care unnecessarily. In addition, the Federal govenunent
recently reached a $2.7 million settlement with a hospice for allegedly billing Medicare
for GIP when beneficiaries actually received routine home care, which has a lower
reimbursement rate . 1

We found that Medicare paid $1 .1 billion for GIP in 2011, most of which was provided in
hospice inpatient units, as opposed to hospitals or SNFs. Twenty-three percent of

1
  U .S. Department of Justice, "Hospice Home Care to Pay $2,700,000 Settlement in Medicare Fraud Case," 

December 9, 2011. Accessed at 

http: //www. j usti~~~Q_y/usao/are/news/2011/Dec;ember/Hosp ice quita[!Ljlf.ttle 12091l.html on April22, 

2013 . 

Page 2 – Marilyn Tavenner


Medicare hospice beneficiaries received GIP during the year. One-third of beneficiaries’
GIP stays exceeded 5 days, with 11 percent lasting 10 days or more. The hospices that
used inpatient units provided GIP to more of their beneficiaries and for longer periods of
time than hospices that used other settings. We also found that 953 hospices, or
27 percent of Medicare hospices, did not provide any GIP to Medicare beneficiaries in
2011 and that 429 of these hospices did not provide any level of hospice care other than
routine home care.

These results raise several questions about GIP. Long lengths of stay and the use of GIP
in inpatient units need further review to ensure that hospices are using GIP as intended
and providing the appropriate level of care. OIG is committed to looking into these
issues further and will conduct a medical record review that will assess the
appropriateness of GIP provided in different settings. CMS should also focus on these
issues as it considers options for hospice payment reform and for developing hospice
quality measures. In particular, CMS should focus on hospices that do not provide GIP
and ensure that these hospices are providing beneficiaries access to needed levels of care
at the end of their lives. One option is for CMS to adopt a quality measure regarding
hospices’ ability to provide all hospice services.

BACKGROUND

The goals of hospice care are to help terminally ill beneficiaries continue life with
minimal disruption and to support beneficiaries’ families and other caregivers throughout
the process. The care may be provided to individuals and their families in various
settings, including a hospice inpatient unit, the home, or other places of residence, such as
a SNF or other nursing facility. In 2011, Medicare paid $13.7 billion for hospice care for
1.2 million beneficiaries.

To be eligible for Medicare hospice care, a beneficiary must be entitled to Part A of
Medicare and be certified as having a terminal illness with a life expectancy of 6 months
or less if the disease runs its normal course. 2 Upon a beneficiary’s election of hospice
care, the hospice agency assumes the responsibility for medical care related to the
beneficiary’s terminal illness and related conditions. This care is palliative, rather than
curative. It includes, among other things, nursing care, medical social services, hospice
aide services (sometimes referred to as home health aide services), medical supplies
(including drugs and biologicals), and physician services. The beneficiary waives all
rights to Medicare payment for services related to the curative treatment of the terminal
condition or related conditions but retains rights to Medicare payment for services to treat
conditions unrelated to the terminal illness. 3 Beneficiaries may revoke their election of
hospice care and return to standard Medicare coverage at any time. 4

2
  Social Security Act, §§ 1814(a)(7)(A) and 1861(dd)(3)(A), 42 U.S.C. §§ 1395f(a)(7)(A) and
1395x(dd)(3)(A); 42 CFR §§ 418.20 and 418.22. Certification is based on the physician’s or medical
director’s clinical judgment regarding the normal course of the individual’s illness.
3
  Social Security Act, §§ 1812(d)(2)(A) and 1861(dd)(1), 42 U.S.C. §§ 1395d(d)(2)(A) and 1395x(dd)(1);
42 CFR § 418.24(d).
4
  Social Security Act, § 1812(d)(2)(B), 42 U.S.C. § 1395d(d)(2)(B); 42 CFR § 418.28.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 3 – Marilyn Tavenner


Beneficiaries are entitled to receive hospice care for two 90-day periods, followed by an
unlimited number of 60-day periods. 5 The periods need not be consecutive. At the start
of each period of care, an attending physician must certify that the beneficiary is
terminally ill and has a life expectancy of 6 months or less. For care to be covered under
Part A, hospices must be certified by Medicare. 6 In 2011, there were 3,585 Medicare
hospices. Of these, 2,071 were for-profit, 1,237 were nonprofit, and 185 were
government owned. 7

The Medicare hospice benefit is currently undergoing some changes. Per the Patient
Protection and Affordable Care Act (ACA), CMS must reform the hospice payment
system. 8 Also, CMS must develop quality measures for hospices and hospices must
report quality data. CMS is currently using two quality measures. The first relates to
pain management and the second relates to how hospices track patient care. Beginning in
2014, hospices must report these measures or face reduced Medicare payments. 9

Hospice General Inpatient Care
The Medicare hospice benefit has four levels of care. 10 Each level has an all-inclusive
daily rate that is paid through Part A. The rate is paid to the hospice for each day that a
beneficiary is in hospice care, regardless of the number of services furnished. The rates
are adjusted based on the beneficiary’s geographic location.

GIP is the second most expensive level of hospice care. As with all covered hospice
services, hospices are required to provide GIP if the beneficiary needs it. 11 GIP is for
pain control or symptom management that cannot be managed in other settings, such as
the beneficiary’s home. 12 GIP is intended to be short-term and may be provided in one of
three settings: a Medicare-certified hospice inpatient unit, a hospital, or SNF. 13 A
Medicare-certified hospice inpatient unit can be freestanding or in space shared with
another health care facility. Medicare-certified hospices with inpatient units must comply
with a number of Federal regulations, ranging from staffing to the dispensing of drugs. 14

The other three levels of care are routine home care, continuous home care, and inpatient
respite care. Routine home care is the most common. Medicare reimburses the hospice
at this rate for each day that the beneficiary is under the care of the hospice and is not
receiving one of the other levels of care. Continuous home care is allowed only during

5
  Social Security Act, § 1812(a)(4), 42 U.S.C. § 1395d(a)(4). Prior to 1990, Medicare provided hospice
coverage for a maximum of 210 days.
6
  Social Security Act, §§ 1814(a) and 1866, 42 U.S.C. §§ 1395f(a) and 1395cc; 42 CFR § 418.116(a).
7
  We did not have information on ownership status for 92 hospices.
8
  Patient Protection and Affordable Care Act (ACA), P.L. 111-148 § 3132.
9
  ACA, P.L. 111-148 § 3004; 76 Fed. Reg. 47302, 47325–26 (Aug. 4, 2011).
10
   42 CFR § 418.302.
11
   Social Security Act, § 1861(dd)(2)(A)(i), 42 U.S.C. § 1395x(dd)(2)(A)(i).
12
   42 CFR § 418.302(b)(4).
13
   42 CFR § 418.108(a) and (b). For GIP, Medicare regulations do not specify what is meant by “short
term.”
14
   42 CFR § 418.110.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 4 – Marilyn Tavenner


brief periods of crisis in which a beneficiary requires continuous care to achieve
palliation or management of acute medical symptoms. Inpatient respite care is short-term
inpatient care provided to the beneficiary when necessary to relieve the beneficiary’s
caregiver(s). It may not be provided consecutively for more than 5 days at a time. 15 See
Table 1 for the unadjusted payment rates for each level of care in fiscal year (FY) 2011.

Table 1: Unadjusted Daily Medicare Hospice Payment
Rates by Level of Care, FY 2011
                                                       Unadjusted
 Level of Care
                                                      FY 2011 Rate
 Routine Home Care                                          $146.63
 Continuous Home Care                                       $855.79
 General Inpatient Care                                     $652.27
 Inpatient Respite Care                                     $151.67
Source: CMS, “Update to Hospice Payment Rates, Hospice Cap, Hospice Wage
Index, and the Hospice Pricer for FY 2011,” Change Request 7077, July 23, 2010.



Inpatient care is subject to an annual cap. Medicare limits the total number of days of
inpatient care (the sum of GIP and inpatient respite care days) for which a hospice may
be reimbursed. The cap is set at 20 percent of the hospice’s total patient care days. 16

Related Work
This report is part of OIG’s continuing work related to Medicare hospice care. Another
study involving a medical record review of general inpatient claims from 2012 will
follow this memorandum report. In 2011, OIG issued a report that found that hospices
with a high percentage of their Medicare beneficiaries residing in nursing facilities
received more Medicare payments per beneficiary and served beneficiaries who spent
more time in hospice care. 17 Another report determined that Medicare paid an average of
$960 per week for hospice care for each beneficiary in a nursing facility. 18 This care
most commonly included nursing, home health aide, and medical social services.
Hospices provided an average of 4.2 visits per week for these 3 services combined.

OIG also has conducted several studies identifying inappropriate Medicare payments in
hospice. OIG found that 82 percent of hospice claims for beneficiaries in nursing
facilities did not meet Medicare coverage requirements. 19 In addition, OIG identified a
number of cases in which the use of inpatient respite care for beneficiaries in nursing
facilities may have been inappropriate. 20 OIG also found instances in which Medicare

15
   42 CFR § 418.302(e)(5).
16
   Social Security Act, § 1861(dd)(2)(A)(iii), 42 U.S.C. § 1395x(dd)(2)(A)(iii); 42 CFR § 418.302(f).
Excess inpatient care days are reimbursed at the routine home care rate.
17
   OIG, Medicare Hospices That Focus on Nursing Facility Residents, OEI-02-10-00070, July 2011.
18
   OIG, Medicare Hospice Care: Services Provided to Beneficiaries Residing in Nursing Facilities,
OEI-02-06-00223, September 2009. Payment for physician services was not included in the analysis.
19
   OIG, Medicare Hospice Care for Beneficiaries in Nursing Facilities: Compliance With Medicare
Coverage Requirements, OEI-02-06-00221, September 2009.
20
   OIG, Hospice Beneficiaries’ Use of Respite Care, OEI-02-06-00222, March 2008.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 5 – Marilyn Tavenner


paid physicians for services related to a beneficiary’s terminal illness under Part B, while
also paying for physicians’ services for the terminal illness under Part A. 21

In addition, OIG is conducting a study that focuses on discharges from acute care
hospitals to hospice care. 22 It will address how a hospital transfer payment policy for
early discharges to hospice care would financially affect the Medicare Part A program
and hospitals.

METHODOLOGY

We based this memorandum report on an analysis of Medicare Part A hospice claims.
To conduct this analysis, we extracted all Medicare Part A hospice claims from CMS’s
National Claims History file that included service dates for hospice care in 2011 and
2010. Part A hospice claims typically cover a 1-month period but could be for shorter
periods of time. The level of hospice care, such as GIP, was indicated by a code on the
claim.

We analyzed the claims data to identify the hospice beneficiaries who received GIP
during 2011, the number of days that each beneficiary received this care, and the setting
in which the care was provided. We also determined from the claims data the terminal
illness of each beneficiary. For beneficiaries receiving care at the beginning of 2011, we
used hospice claims from 2010 to determine the level of care they received when they
started hospice care.

In addition, we identified all of the Medicare-certified hospices that provided hospice
care in 2011. For each hospice, we determined the number of Medicare hospice
beneficiaries it served, the number of hospice beneficiaries for whom it provided GIP,
the settings in which it provided GIP, the number of beneficiaries for whom it provided
other levels of hospice care, and the reimbursements it received for GIP and for all
hospice care. We determined each hospice’s profit status by using Certification and
Survey Provider Enhanced Reports (CASPER). If CASPER did not show a
classification of for-profit, nonprofit, or government owned for a hospice, we used
information available in the Healthcare Cost Report Information System to determine the
hospice’s status.

We grouped hospices according to the number of Medicare beneficiaries each hospice
served during the year. We considered a hospice to be large if it provided care to more
than 320 Medicare beneficiaries in 2011. We considered a hospice to be small if it
provided care to 90 or fewer beneficiaries. 23


21
   OIG, Questionable Billing for Physician Services for Hospice Beneficiaries, OEI-02-06-00224,
September 2010.
22
   OIG, Medicare Could Save Millions by Implementing a Hospital Transfer Payment Policy for Early
Discharges to Hospice Care, A-01-12-00507, (forthcoming).
23
   Large hospices were those in the top 30th percentile, whereas small hospices were in the bottom 30th
percentile.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 6 – Marilyn Tavenner


For the purposes of this memorandum, we use the term “GIP stay” to refer to the
continuous days in which a beneficiary received GIP from the same hospice in the same
setting. To determine the continuous days a beneficiary received care, we combined
claims for GIP when they were for the same beneficiary in the same setting, from the
same hospice, and the start date of a subsequent claim was the same day or the next day
as the ending date of the previous claim.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

Limitations
We based this memorandum report on an analysis of Medicare hospice claims. We did
not conduct a medical record review and did not determine whether services provided
were medically necessary.




Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 7 – Marilyn Tavenner


RESULTS

Medicare Paid More Than $1 Billion for Hospice General Inpatient Care in 2011,
Most of Which Was Provided in Hospices’ Inpatient Units, as Opposed to Hospitals
or SNFs
Medicare paid $1.1 billion for GIP in 2011. This is 8 percent of the total $13.7 billion
that Medicare spent for all hospice care during the year.

Most GIP was provided in hospice inpatient units. Fifty-eight percent of GIP stays were
in hospice inpatient units, compared to 33 percent in hospitals and 8 percent in SNFs. 24
In addition, GIP stays in hospice inpatient units accounted for more than two-thirds of the
total amount Medicare spent on GIP during the year. In 2011, Medicare paid
$738 million for GIP provided in hospice inpatient units, $280 million for GIP provided
in hospitals, and $86 million for this care in SNFs. These amounts accounted for
67 percent, 25 percent, and 8 percent of all GIP spending, respectively. See Figure 1.

Figure 1: Percentages of GIP Stays and Medicare Spending on GIP
by Setting, Calendar Year 2011

                                            100%

                                            90%
     Percentage of GIP Stays and Spending




                                            80%

                                            70%                                      67%

                                                   58%
                                            60%

                                            50%

                                            40%
                                                            33%
                                            30%                                             25%

                                            20%
                                                                     8%                            8%
                                            10%

                                             0%
                                                         GIP Stays                  Dollars Spent on GIP

                                                    Hospice Inpatient Units   Hospitals    SNFs

Source: OIG analysis of CMS data, 2012.


Twenty-three percent of Medicare hospice beneficiaries received GIP in 2011.
Seventy-one percent of these beneficiaries received GIP at the start of their time in
hospice care. The most common terminal illnesses of beneficiaries who received GIP
were cancer, circulatory disease, respiratory disease, ill-defined conditions, and mental
disorders. These terminal illnesses were also the most common in the general hospice
population.


24
       Because of rounding, these figures do not add to 100 percent.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 8 – Marilyn Tavenner


One-Third of GIP Stays Lasted Longer Than 5 Days
Thirty-three percent of GIP stays in 2011 were longer than 5 days, with some lasting
much longer than 5 days. More specifically, 11 percent of all GIP stays were 10 days or
more. Two percent of all GIP stays continued for over 3 weeks. See Figure 2. Medicare
policy does not specify a limit on the number of days GIP is allowed, although it is
intended to be short-term. The other level of hospice care intended to be short-term,
inpatient respite care is limited to 5 consecutive days. Inpatient respite care is used to
relieve the beneficiary’s caregiver(s).

Figure 2: Percentage of GIP Stays Lasting More Than 5, 10, or 21 Days,
Calendar Year 2011
                                   35%         33%


                                   30%


                                   25%
     Percentage of All GIP Stays




                                   20%


                                   15%
                                                                  11%
                                   10%


                                   5%
                                                                                       2%

                                   0%
                                         More than 5 days   More than 10 days   More than 21 days

                                                             Length of Stay

Source: OIG analysis of CMS data, 2012.


GIP stays were much less likely to begin on Sunday or Saturday than on a weekday.
Eight percent of all GIP stays started on Sundays and 11 percent started on Saturdays,
whereas at least 16 percent of GIP stays started on each of the other days of the week.
Because GIP is meant for pain control or symptom management that cannot be managed
in other settings, we would expect that the percentages of GIP starts during weekend days
and those during weekdays to be similar. 25 In each of the three settings, the lowest
percentage of GIP stays started on Sundays. The difference between Sunday and other
days was greatest in SNFs, where 5 percent of GIP stays started on Sundays and
19 percent started on Fridays. See Appendix A.

Unlike the starts of GIP stays, the ends of GIP stays were generally steady throughout the
week. Fourteen percent of GIP stays ended on Sundays and 13 percent on Saturdays.
Thirteen to 16 percent of GIP stays ended on each of the other days of the week.

25
  Hospices must make physician and nursing services available (as needed) on a 24-hour basis. Social
Security Act, § 1861(dd)(2)(A)(i), 42 U.S.C. § 1395x(dd)(2)(A)(i).


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 9 – Marilyn Tavenner



Hospices That Used Inpatient Units Provided GIP to More of Their Beneficiaries
and for Longer Periods of Time Than Hospices That Used Other Settings
Twenty-three percent of all Medicare hospices (809 hospices) provided GIP in inpatient
units. Sixty percent of all Medicare hospices (2,163 hospices) provided GIP in hospitals,
and 27 percent (978 hospices) provided GIP in SNFs. 26

The 23 percent of hospices that used inpatient units were more likely than other hospices
to provide GIP to their beneficiaries. Hospices that used inpatient units provided GIP to
35 percent of their beneficiaries. In contrast, hospices that did not use inpatient units and
provided GIP in hospitals or SNFs did so for 12 percent of their beneficiaries. Hospices
that used inpatient units were also more dependent on GIP dollars. GIP represented
13 percent of the total Medicare dollars of hospices that used hospice inpatient units. In
contrast, GIP represented 4 percent of the total Medicare dollars of hospices that did not
use inpatient units and provided GIP in hospitals or SNFs.

GIP stays in inpatient units were typically longer than GIP stays in other settings. On
average, GIP stays in inpatient units were 50 percent longer than GIP stays in hospitals
and 29 percent longer than GIP stays in SNFs. The average GIP length of stay in an
inpatient unit lasted 6.1 days, whereas the average GIP length of stay in a hospital was
4.1 days and the average in a SNF was 4.8 days. See Figure 3. GIP stays in inpatient
units were much more likely than GIP stays in other settings to exceed 5 days. Forty
percent of all GIP stays in an inpatient unit exceeded 5 days, compared to 22 percent in
hospitals and 27 percent in SNFs.

Figure 3: Average Length of GIP Stays by Setting, Calendar Year 2011
                        7
                                 6.1
                        6

                                                            4.8
                        5
                                                 4.1
     Days of GIP Stay




                        4

                        3

                        2

                        1

                        0
                            Inpatient Units   Hospitals     SNFs

                                              GIP Setting

Source: OIG analysis of CMS data, 2012.


Hospices that provided GIP in inpatient units were more likely to be large than were
other hospices that provided GIP. We considered a hospice to be large if it provided

26
     Some hospices provided GIP in more than one setting.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 10 – Marilyn Tavenner


hospice care to more than 320 Medicare beneficiaries in 2011. Sixty-two percent of
hospices that used inpatient units were large, compared to 29 percent of other hospices.
Hospices that provided GIP in inpatient units served an average of 774 Medicare
beneficiaries in 2011. Other hospices that provided GIP served an average of
292 Medicare beneficiaries.

More Than One Quarter of Hospices Did Not Provide Any General Inpatient Care
in 2011
A total of 953 hospices did not provide GIP in 2011. This represents 27 percent of the
3,585 Medicare hospices in 2011. These 953 hospices served 92,803 Medicare hospice
beneficiaries, but did not provide GIP to any of them during the year. As with all
covered hospice services, hospices are required to provide GIP if the beneficiary needs it.
In general, the beneficiaries served by hospices that did not provide GIP had the same
terminal illnesses as beneficiaries served by hospices that provided GIP. 27

Hospices that did not provide GIP often did not provide other levels of hospice care to
beneficiaries. Sixty-eight percent of hospices that did not provide GIP also did not
provide continuous care, which is a level of hospice care that manages acute medical
symptoms while the beneficiary remains at home. Sixty-two percent of hospices that did
not provide GIP did not provide inpatient respite care, which is short-term inpatient care
provided to the beneficiary when necessary to relieve the beneficiary’s caregiver(s). Like
GIP, continuous care and inpatient respite care are covered by Medicare and must be
provided if needed. In total, 45 percent of hospices that did not provide GIP also did not
provide continuous care or inpatient respite care during the year. These 429 hospices
provided only routine hospice care to all their beneficiaries throughout 2011.

The hospices that did not provide GIP were more likely than other hospices to be
for-profit. In 2011, 69 percent of the hospices that did not provide GIP were for-profit, as
opposed to 54 percent of hospices that provided GIP.

In addition, hospices that did not provide GIP were more likely than other hospices to be
small. We considered a hospice to be small if it provided hospice care to 90 or fewer
Medicare beneficiaries in 2011. Sixty-three percent of hospices that did not provide GIP
were small while 18 percent of hospices that provided GIP were small.




27
  There were small differences in two terminal illnesses. Twenty-four percent of beneficiaries from
hospices that did not provide GIP had cancer, compared to 28 percent of beneficiaries from hospices that
provided GIP. Eight percent of beneficiaries from hospices that did not provide GIP had Alzheimer’s
disease, compared to 5 percent from the other hospices. See Appendix A.


Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 11 – Marilyn Tavenner


CONCLUSION

GIP is an important level of care for hospice beneficiaries. We found that Medicare paid
$1.1 billion for GIP in 2011, most of which was provided in hospice inpatient units, as
opposed to hospitals or SNFs. Twenty-three percent of Medicare hospice beneficiaries
received GIP during the year. One-third of beneficiaries’ GIP stays exceeded 5 days,
with 11 percent lasting 10 days or more. The hospices that used inpatient units provided
GIP to more of their beneficiaries and for longer periods of time than hospices that used
other settings. We also found that 953 hospices, or 27 percent of Medicare hospices, did
not provide any GIP to Medicare beneficiaries in 2011 and that 429 of these hospices did
not provide any level of hospice care other than routine home care.

These results raise several questions about GIP. Long lengths of stay and the use of GIP
in inpatient units need further review to ensure that hospices are using GIP as intended
and providing the appropriate level of care. OIG is committed to looking into these
issues further and will conduct a medical record review that will assess the
appropriateness of GIP provided in different settings. CMS should also focus on these
issues as it considers options for hospice payment reform and for developing hospice
quality measures. In particular, CMS should focus on hospices that do not provide GIP
and ensure that these hospices are providing beneficiaries access to needed levels of care
at the end of their lives. One option is for CMS to adopt a quality measure regarding
hospices’ ability to provide all hospice services.

This report is being issued directly in final form because it contains no recommendations.
We anticipate making recommendations regarding the use of GIP in a separate report
after we have completed our medical record review. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-02-10-00490 in all correspondence.




Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 12 – Marilyn Tavenner


APPENDIX A

Figure A-1: Percentage of Hospice General Inpatient Care (GIP) Stays That Started on
Each Day of the Week by Setting, Calendar Year 2011
                                25%
  Percentage of All GIP Stays




                                20%



                                15%



                                10%



                                5%



                                0%
                                      Monday    Tuesday   Wednesday    Thursday      Friday       Saturday     Sunday

                                                              Starting Day of the GIP Stay
                                           Hospice Inpatient Units     Hospitals       Skilled Nursing Facilities

Source: Office of Inspector General analysis of Centers for Medicare & Medicaid Services data, 2012.




Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
Page 13 – Marilyn Tavenner


APPENDIX B
Figure B-1: Beneficiary Diagnoses in Hospices That Provided Hospice General Inpatient
Care (GIP) and in Hospices That Provided No GIP, Calendar Year 2011
                                  35%


                                  30%
    Percentage of Beneficiaries




                                  25%


                                  20%


                                  15%


                                  10%


                                  5%


                                  0%
                                        Cancers     Circulatory    Respiratory    Ill-Defined       Mental     Alzheimer's
                                                    Diseases        Diseases      Conditions       Disorders    Disease

                                                      Diagnosis Category of the Terminal Illness

                                              Hospices that provided no GIP      Hospices that provided GIP

Source: Office of Inspector General analysis of Centers for Medicare & Medicaid Services data, 2012.




Medicare Hospice: Use of General Inpatient Care (OEI-02-10-00490)
